CERTIFICATE OF SERVICE

No. 20-1174
KIM LIPPARD AND BARRY LIPPARD,

Petitioners,
V.

LARRY HOLLEMAN AND ALAN HIX,

Respondents.
I, Seth J. Kraus, do hereby certify that, on this twenty-fourth day of March,
2021, I caused an electronic copy of the letter requesting an extension of time within
which to file a response to the petition for writ of certiorari in the foregoing case to be
served by email on the following:
Julian H. Wright, Jr.
ROBINSON, BRADSHAW
& HINSON, P.A.
101 N. Tryon St.
Suite 1900
Charlotte, NC 28246
jwright@robinsonbradshaw.com

Counsel for Petitioners

/s/ Seth J. Kraus

Seth J. Kraus
GIBBS & ASSOCIATES LAW FIRM, LLC
6398 Thornberry Court
Mason, Ohio 45040
(513) 234-5545

